No. ______________________
IN THE
SUPREME COURT OF THE UNITED STATES
SCOTT RAYMOND TIGNOR,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent
On Petition for Writ of Certiorari
to the United States Court of Appeals for the Tenth Circuit
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner Scott Raymond Tignor respectfully requests that this Court grant
him leave to proceed in forma pauperis. In support of this request, Petitioner states
that undersigned counsel was appointed pursuant to the Criminal Justice Act,
18 U.S.C. ยง 3006A, by the United States Court of Appeals for the Tenth Circuit, and
that Petitioner is unable to retain counsel and pay the costs attendant to proceeding
before this Honorable Court.
//
//
//
//
//
//

WHEREFORE, Petitioner Scott Raymond Tignor respectfully requests that
he be granted leave to proceed in forma pauperis.
Respectfully submitted,
VIRGINIA L. GRADY
Federal Public Defender
s/ Kathleen Shen
KATHLEEN SHEN
Assistant Federal Public Defender

Counsel of Record for Petitioner

633 17th Street, Suite 1000
Denver, Colorado 80202
(303) 294-7002
kathleen_shen@fd.org

2

